                                           NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR G E N E M L
                                             OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

 Case Number: A05020005                                                11        Page 1of 1


         We received a n allegation of plagiarism regarding a proposal submitted to NSF by a
         PI and two co-PIs.1 Our Inquiry eliminated the two co-PIS a s subjects, so we
         referred the allegation to the PI'S university.2 The University concluded the P I was
         responsible for the copied material in his proposal, and concluded the P I
         plagiarized.

         We agreed with the university t h a t the P I plagiarized and recommended NSF make
         a finding of research misconduct against the him. NSF agreed and took the
         additional actions of requiring the subject to (1) certify for 5 years that any
         proposals submitted by the subject contain no plagiarized, falsified, or fabricated
         material; (2) submit for 5 years the assurances of a university official who h a s
         reviewed the PI'S NSF proposals and reports and concluded they do not contain any
         plagiarized, falsified, or fabricated material; and (3) complete a n ethics course on
         plagiarism.

        Accordingly, this case is closed. This memorandum, the Deputy Director's
        adjudication, and our Report of Investigation constitute the closeout for this case.




             1   (footnote redacted).
             2   (footnote redacted).




NSF OIG Form 2 (1 1/02)
                                  NATIONALSCIENCE FOUNDATION
                                     4201 WILSON BOLILEVARD
                                    ARLINGTON, VIRGINIA 22230




   OFFICE OF THE
  DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re: Notice of Research Misconduct Determination

Dear Dr.

On or about November 12,2004, you submitted a proposal to the National Science Foundation
("NSF") entitled ":                                                             " As

documented in the attached Investigative Report      by NSF's Office of Inspector General
("OIG"), this proposal contained plagiarized text.
                              -

                                                                                -   -




Research Misconduct and Actions Taken

Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
plagiarism in proposing or performing research fbnded by NSF . .." 45 CFR § 689.1(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR §689.1(a)(3). A finding of research misconduct
requires that:

       (1)     There be a significant departure from accepted practices of the relevant research
               community; and
       (2)     The research misconduct be committed intentionally, or knowingly, or recklessly;
               and
       (3)     The allegation be proven by a preponderance of evidence.

45 CFR 689.2(c).

In your proposal, you copied text fiom multiple sources without providing proper attribution for
such material. By submitting proposals to NSF that copy the ideas or words of another without
adequate attribution, as described in the OIG Investigative Report, you misrepresented someone
                                                                                             Page 2
                                                                                                      <
else's work as your own. Your conduct unquestionably constitutes plagiarism. I therefore
conclude that your actions meet the definition of "research misconduct" set forth in NSF's
regulations.' '

Pursuant to NSF regulations, the Foundation must also determine whether to make ajinding of
misconduct based on a preponderance of the evidence. 45 CFR 5 689.2(c). After reviewing the
Investigative Report and the University's report, NSF has determined that, based on a
preponderance of the evidence, your misconduct was knowing and constituted a significant
departure from accepted practices of the relevant research community. I am, therefore, issuing a
finding of research misconduct against you.

NSF's regulations establish three categories of actions (Group I, IT, and III)that can be taken in
response to a finding of misconduct. 45 CFR §689.3(a). Group I actions include issuing a letter
of reprimand; conditioning awards on prior approval of particular activities from NSF; requiring
that an institution or individual obtain special prior approval of particular activities from NSF;
and requiring that an institutional representative certify as to the accuracy of reports or
certifications of compliance with particular requirements. 45 CFR $689.3(a)(I). Group I1
actions include award suspension or restrictions on designated activities or expenditures;
requiring special reviews of requests for funding; and requiring correction to the research record.
45 CFR §689.3(a)(2). Group I    IIactions include suspension or termination of awards;
prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
suspension from participation in NSF programs. 45 CFR 5 689.3(a)(3).

In determining the severity of the sanction to impose for research misconduct, I have considered
the seriousness of the misconduct; our determination that it was knowing; the determination that
it was part of a pattern; your willingness to accept responsibility for your actions; and the fact
that your conduct did not have an impact on the published research record. I have also
considered other relevant circumstances. 45 CFR fj 689.3 (b).

I find your plagiarism to be serious because the amount of text that you copied was substantial.
Moreover, in light of the fact that you had previously submitted another proposal containing
plagiarized text, we believe that your plagiarism is part of a pattern of misconduct, as opposed to
an isolated incident. However, your conduct did not have a significant impact on the research
record and you cooperated fully with the investigation. Moreover, you took the initiative to
purchase plagiarism detection software to ensure that you do not submit another proposal
containing plagiarized text.

I, therefore, take the foIlowing actions:

       From the date ofthis letter through October 15,2012, you are required to certify.that
       proposals or reports you submit to NSF do not contain plagiarized, falsified, or fabricated
       material. Such certifications should be sent to the OIG, 4201 Wilson Boulevard,
       Arlington, VA 22230.
                                                                                           Page 3

         From the date of this letter through October 15,2012, you are required to submit
         assurances by a responsible official of your employer that any proposals or reports you
         submit to NSF do not contain plagiarized, falsified, or fabricated material. Such
         assurances should be sent to the OIG.

         You are required to complete an ethics training course on plagiarism by June 30,2008.
         You must certify in writing to the OIG that such training has been completed before
         you will be permitted to submit any further grant proposals for Federal funding.


Procedures Governing Appeals

Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
decision, in writing, to the Director of the Foundation. 45 CFR 5 689.10(a). Any appeal should
be addressed to the Director at the National Science Foundation, 420 1 Wilson Boulevard,
Arlington, VA 22230. If we do not receive your appeal within the 30-day period, this decision
will become final. For your information we are attaching a copy of the applicable regulations. If
you have any questions about the foregoing, please contact
          at (703) 292-8060.




                                             Sincerely,




                                             Kathie L. Olsen
                                             Deputy Director



Enclosures
   - ~nvesti~ativeReport
   - 45 C.F.R. Part 689
      National Science
         Foundation
 Office of Inspector General




               Confidential
           Investigation Report
         Case Number A05020005
                         19 June 2007

   This Confidential Investigation Report is the property of the NSF OIG and may be
disclosed outside NSF only by OIG under the Freedom of Information and Privacy Acts,
                                 5 U.S.C. $5 552, 552a.

                                                                   NSF OIG Form 22b (11106)
                              Executive Summarv
Allegation:   Plagiarism.
OIG Inquiry: A proposal submitted to NSF by a PI and two co-PIS contained text
              copied from multiple sources without appropriate citation. Our
              Inquiry eliminated the co-PIS a s subjects. We referred the
              allegation to the PI'S home institution.
University Investigation
and Action: The University concluded the P I was responsible for the material in
              the proposal, and a preponderance of evidence proved the P I
              carelessly plagiarized.
              For a period of 1 year, the P I is prohibited from being a PI-he
              must be a co-PI-on proposals for external funding.
              For 3 years, the PI'S proposals must be reviewed before submission;
              and the P I must instruct new faculty on the seriousness of
              plagiarism and methods t h a t can be used to check their work.
OIG
Assessment: We concur with the University the PI plagiarized, but conclude he
              did so knowingly, not carelessly.
              The Act: The P I copied approximately 137 lines of text verbatim
              and 1 figure from 17 sources, without quotation marks or
              appropriate citation, into the proposal.
              Intent: Given the PI'S unaltered use of a figure, together with large
              blocks of verbatim text from multiple sources, we conclude the P I
              acted knowingly.
              Standard of Proof: The University and OIG used a preponderance
              of the evidence to reach their conclusions.
              Significant Departure: We concur with the University in
              concluding the PI'S copying represents a significant departure from
              community standards.
              Pattern: We discovered a second proposal with copied text i n it.
OIG
Recommends: Send the co-PI a letter of reprimand informing him NSF is making
              a finding of research misconduct;
              1 year debarment;
              Require certifications (a copy of University's certifications) for 3
              years;
              Require assurances for 3 years;
              Require the co-PI to attend a n ethics class and provide a copy of the
              training materials from the course.
                                           OIG I n q u i r y
      During the merit review of an NSF proposa1,l we received an allegation the
proposal contained plagiarized text. We initiated an inquiry and identified
approximately 147 lines of text and 2 figures copied verbatim from 18 sources. The
copied material occurred in nearly every section of the proposal: "1.Project
Overview," "3. Material Preparation," "4. Spectroscopy," and "5.
             "
      The proposal listed a PI (Subject A2) and two co-PIS(Subject B3 and Subject
C4), a11 from different universities. We wrote each subject asking for an
explanation.5 Subject B and Subject C called us and then responded jointly in
writing,6 whle Subject A responded independently.7 Subject A also called and gave
a n oral response before submitting a written response.
      Subjects B and C said they considered the resolution of the allegation
important and agreed to cooperate with our inquiry. They were "shocked to see the
"many verbatim insertions in the proposal of sentences, figures, and excerpts taken
from published documents, without proper referencing."g They said they were
"unaware of these verbatim insertions" as "the proposal was almost entirely written
by the PI."g They noted they reviewed the proposal, but nothing appeared unusual
with regard to the text or references. Subject B pointed out one of the alleged
sources that contained a figure was from a paper he had published.10 Although
Subject A did not cite this in the proposal, Subject B provided it to him and was a
co-PI, so we have omitted this figure and source in our description of the copied
material.
      In Subject A's oral response, he said he did not write the questioned material;
he said his former postdoctoral researcher (FPR) prepared most of the material for a
report submitted to a state agency. He said he incorporated material from that
document into his proposal without checking whether it was properly referenced.
We asked he provide proof of this in his written response, and he agreed.
      In his written response, Subject A said he had prepared the proposal in good
faith. He said "[b]ecause of the languages generic nature neither I nor my two
collaborators identified the need for referencing."ll He stated his acceptance "that
each comment should have been rewritten and fully referenced."lz In his written

1  (redacted). The proposal and its alleged source documents are Appendix (A).
2  (redacted).
3 (redacted).
4 (redacted).
5 The letters to the three subjects were similar, a n example of which is Appendix (B).
6 Subject B's and Subject C' joint response is Appendix (C).
7 Subject A's first response is Appendix (D).
8 Appendix (C), p. 2.
9 Id.
10 This is Source 10 in Appendix (A), which corresponds to Figure 1in the proposal.
l 1 Appendix (D), p. 1.
12 Id.




                                                                                          Pg. 2
response, he implied, but did not state, he did not write the questioned material in
the proposal by obliquely noting "it never occurred to me that the sentences were
direct copies of other documents."l3
     After receiving his written response, we asked him why it differed from his oral
response and why he did not provide the contact information for FPR. He said he
did not want us to contact FPR because they had had a n acrimonious parting, and
she still had influence with powerful faculty members in his department who would
use this a s a n excuse to deny him tenure. We explained our procedure, and we
would refer this to his home institution for resolution. He became very concerned
about a referral and asked if he could submit another written response that would
address our concerns in lieu of a referral. We agreed he could submit a more
detailed response.
     His second response came via his attorney14 and included a statement from his
attorney and a further explanation from Subject A.15 His attorney said the proposal
was sloppy, but he did not deliberately attempt to deceive anyone; thus, he did not
commit research misconduct. Subject A said he "accept[s] full responsibility for the
errors in the proposal."lG He added "that many, if not all of [the copied passages]
were taken in toto from other sources without proper attribution."l7 He asked FPR
to provide "introductory or basic explanatory material"l8 as input to the state
agency report. He said he was aware of the ethical standards regarding proper
attribution, but "there was no emphasis on formal scholarship"l9 for that document.
However, he considered much of the questioned text a s "unremarkable and
describ[ing] basic concepts";20 "elementary and non-controversial";21 and "accepted
wisdom."22 He said "it is apparent that I did not make it sufficiently clear to my
students that proper attribution is required even for mundane passages."23
     Subject A described his haste in preparing the proposal and several personal
and professional problems that contributed to the copied text in the proposal. He '
concluded by saying he has purchased software designed to find copied text. Subject
A did not provide the requested contact information for FPR. He did provide a
'Bibliometric Analysis' of his publications that shows how often they are cited;
however, as it did not address the allegation, we did not consider it useful for our
inquiry.


13   Id.
14 (redacted).
15 Subject A's second response through his attorney is Appendix (E). Appendix (E) contains the
attorney's statement and Subject A's further response.
16 Appendix (E), p. 3.
17 Id.
18 Ibid.,p. 4.
19 Id.
20 Ibid.,p. 5.
21 Ibid.,p. 6.
22 Ibid.,p. 8.
23 Ibid.,p. 12.
     After several additional discussions with Subject A and his attorney, we finally
learned FPR's name, but no contact information. Subject A provided a copy of the
state agency report he and FPR co-wrote.24 He also provided documentation of his
later difficulties in working with FPR and some evidence she had plagiarized in
another document after leaving his research group. As we did not receive
satisfactory evidence supporting his assertions, we finally referred the matter to his
home institution for investigation.25
                              The University's Actions
     The University conducted a n inquiry t h a t recommended "a more detailed
analysis [ I be made by a committee of [Subject A's] peers of adequate citation in his
other publications, the level of care exercised i n the preparation of the proposal
under consideration, and other related circumstances."26 As a result of this
recommendation, a n investigation was conducted by a n advisory committee to the
Interim Vice President of Research, The committee was composed of high-level
administrators27 who "unanimously agreed on the conclusions in the [ ] report .'728
The committee reviewed the proposal and various source documents, interviewed
Subject A, corresponded with FPR, and reviewed Subject A's prior NSF proposal
submissions.
     The committee concluded there "has been clear and admitted reproduction of
material for this NSF proposal without attribution (or correct attribution) from a
variety of s0urces."~9As noted previously, the subject said FPR copied the
questioned material for a state agency report, rather than the proposal, and it was
he who incorporated the copied text into the proposal.
     The committee contacted FPR regarding her role in the preparation of the
original document. FPR did not substantiate Subject A's claims and admitted only
limited writing, essentially amounting to one paragraph (approximately 10 lines)
and material incorporated from Subject B's paper (which included one figure).30
The committee did not dwell on the details of who wrote the text, but took a larger
view and "recognize[d] that [Subject A], a s the signatory to the NSF proposal, is
responsible for the material contained in it."31 Accordingly, it concluded Subject A
"as principal investigator of the proposal, did commit plagiarism and is solely
responsible for the material in the proposal."32



24 Appendix (F).
25 Our referral letter is Appendix (G).
26 Appendix (H) is the notification from (redacted).
27 The committee was composed of the two Associate Vice Presidents for Research, the Director for
Compliance, the Associate Dean from the College of Arts and Sciences, the Associate Research Dean
from the College of Engineering, and the Interim Vice President for Research.
28 The University's revised report is Appendix (I).
29 Appendix (I),p . 2.
30 FPR's response is Appendix (J).
31 Appendix (I),p. 3.
32 Id.




                                                                                             Pg. 4
      The committee concluded Subject A's action "constitutes a significant
departure from accepted practice of the relevant professional community."33 With
regard to Subject A's intent, the committee found "no evidence that the plagiarism
was committed knowingly or intentionally."34 The committee's reasoning for
Subject A's intent was based on his own responses, which the committee accepted,
and its own reasoning t h a t "the sheer volume of the plagiarized material without
any citations indicates a clear intent on his part to put i n the citations prior to
proposal submission which he failed to do."35 I t therefore concluded "the
preponderance of the evidence . . . shows the actions of the principal investigator
demonstrate a significant level of carelessness."36
      The committee used a search engine37 to review the last several years of
proposals on which Subject A was either PI or co-PI. I t found no evidence of a
pattern of plagiarism and concluded Subject A's "use of information without
attribution in this NSF proposal appears to be a surprising and significant
aberration i n the career of a n otherwise excellent and promising researcher."
      As this proposal was not funded, the committee opined "it is not believed t h a t
the impact is significant a t this point (although [the University] does not want to
minimize the seriousness of this of the fact t h a t the researchers whose material was
purloined may feel otherwise)."38 The committee recognized some contributing
factors a t the time, such a s the recent birth of Subject A's child, his over-
commitment of resources, and interpersonal issues within his department.
      Although the committee found the plagiarism was committed carelessly, it
recommended administrative action "based on the sole fact that plagiarism occurred
i n a proposal sponsored by [the University]."39 I t recommended the following steps:
     For l y e a r ,
        o Subject A is prohibited from submitting proposals a s the sole PI-he must
             name a collaborator from the University a s PI.
     For 3 years,
        o Subject A's proposals must be reviewed by two senior researchers before
            submission to a sponsor;
        o The review will be conducted using all reasonable efforts, such a s search
            engines and plagiarism software;
        o Subject A must instruct new faculty members enrolled in the University's
            P I certification course on the seriousness of plagiarism and on the
            techniques to check their work.40

33 Id.
34 Ibid.,p. 4.
35 Id.
36 Id.
37   Google Scholar (http://scholar.google.com).
38   Appendix (I), p. 5 .
39   Id.
40   Ibid.,p. 6.

                                                                                   Pg. 5
These recommendations were accepted by the University adjudicator41 a s well a s
Subject A.42
                                       OIG's Assessment
      We found the University's initial report incomplete i n assessing the available
evidence, and it did not clearly address several factors we outlined in our referral
letter. We asked the University to clarify its conclusions and provide evidence to
support them. The University's revised report was more thorough, and we accept it
a s complete.43 We conclude it followed reasonable procedures i n its investigation.
While we accept most of the University's conclusions, we disagree with its
assessment of Subject A's intent and its assessment of evidence of a pattern of
plagiarism.44
      Subject A claims FPR copied the majority of the unattributed, verbatim text for
use i n a state agency report, and he used t h a t document a s a basis for his proposal.
FPR acknowledges copying only one figure and one paragraph. There is not
complete overlap of copied text i n the state agency report and the proposal, leading
u s to conclude Subject A copied the non-overlapping material. The state agency
report lists only Subject A a s its author, which tends to support FPR's testimony to
the committee t h a t she did not contribute significantly to it. I n considering Subject
A's and FPR's statements, we agree with the committee's reasoning t h a t held
Subject A, a s PI of the NSF proposal, responsible for the copied material i n it. We
concur with the University that a preponderance of evidence supports the
conclusion Subject A committed plagiarism.
      Subject A claims FPR wrote much of the previous state agency report and
therefore she was responsible,for the copied text in that document. If his version
were true, then his knowingly t a h n g sole authorship credit for the state agency
report would have been ethically questionable a s he did not give appropriate credit
to FPR, who he is now claiming was a significant author of t h a t document. Then, if
he further incorporated FPR's previous material into his proposal without
acknowledging her authorship, he would have also violated NSF's Grant Proposal
Guide:45
        NSF expects strict adherence to the rules of proper scholarship and
        attribution. The responsibility for proper attribution and citation rests


41 (redacted), Executive Vice President and Provost.
42 We noted the adjudicator's response (Appendix I) states the University is "willing to take
necessary corrective action with" the subject. We called the Vice President for Research to ask about
the odd phrasing and whether the actions were actually implemented. He said he was under the
mistaken assumption NSF had to approve their actions. I explained this was not the case as the
University acted in its best interests independently of NSF. The VP said the subject agreed to the
actions, and the VP would implement them.
43 See Appendix (I).
44 For our discussion of intent, see p. 7 of this ROI. For our discussion of evidence of a pattern of
plagiarism, see p. 8 of this ROI.
45 Grant Proposal Guide, NSF 04-23, I.D.3 Full Proposal
(http:/Iwww .nsf.gov/publications/pub_summ.jsp?ods~key=gpg).


                                                                                                Pg. 6
       with authors of a proposal; all parts of the proposal should be prepared
       with equal care for this concern. Authors other than the PI (or any co-
       PI) should be named and acknowledged. Serious failure to adhere to
       such standards can result in findings of research misconduct.
Therefore, by his own account, Subject A did not give FPR authorship credit i n the
proposal a s required. Since the amount of copied text is significant, his deprivation
of authorship credit would be a serious failure to adhere to NSF's standards. I n any
case, for the reasons discussed above, we conclude Subject A's claims are not
supported by a preponderance of the evidence; thus, he was responsible for the
copied text.
                                          THEACT
     Subject A copied 1figure and approximately 137 lines of text verbatim from 18
sources, without quotation marks or appropriate citation, into the proposal.46 The
University committee determined this action met the definition of plagiarism, and
we concur.
                                           INTENT
     The committee concluded Subject A acted carelessly in plaparizing. Subject
A's proposal had a significant amount of unattributed, verbatim copied text,
including one copied figure, from multiple sources. The committee suggested this
"sheer volume of plagiarized material without any citations indicates a clear intent
on his part to put i n the citations prior to proposal submission," but t h a t "he failed
to do" so, and t h a t the failure was due to "a significant level of carelessness."47 We
disagree. While copying a few lines from a single source may be careless under
some circumstances, copying from 18 sources indicates knowing action. Taking all
the evidence into account, we conclude a preponderance of the evidence supports the
conclusion Subject A acted knowingly in copying 1figure and approximately 137
lines of text verbatim from 18 sources without appropriate citation.

      NSF's Research Misconduct Regulation states t h a t a finding of misconduct
requires: (1)there be a significant departure from accepted practices of the relevant
research community; and (2) the research misconduct be committed intentionally, or
knowingly, or recklessly; and (3) the allegation be proven by a preponderance of the
evidence.48 We conclude a preponderance of the evidence shows Subject A acted
knowingly when he copied text from multiple sources into his proposal without
citation. We concur with the University his action was a significant departure from


46 AS described earlier, there were a total of 2 figures and 147 lines of verbatim text copied from 19
sources in Subject A's proposal. After our inquiry, we omitted one source as it included one of the co-
PIS as a n author; one figure had been copied from that source. After the University investigation, we
omitted the 10 lines the FPR admitted preparing for the previous document. Therefore, Subject A is
responsible for the remaining 1figure and 137 lines of verbatim text, all copied without appropriate
attribution from 18 sources.
47 Appendix (I), p. 4.
48 45 C.F.R. § 689.2(c).
accepted practices. Hence, we conclude Subject A's action is plagiarism and is
research misconduct.
                             OIG's Recommended Disposition
     I n deciding what actions are appropriate when making a finding of research
misconduct, NSF must consider several factors. These factors include how serious
the misconduct was; whether it was a n isolated event or part of a pattern; its
impact on the research record; and other relevant circumstances.49
                                            Pattern
      The committee reviewed50 Subject A's prior proposals for evidence of a pattern
of plagiarism and found none, concluding his copying in this proposal "appears to be
a n aberration."51 We reviewed two of Subject A's prior NSF proposals for
plagiarism. One of them52 was submitted before our inquiry began and one of
them53 afterward. The proposal submitted after our inquiry began did not have
copied text. The proposal submitted before our inquiry began had approximately 25
lines of text copied from 4 different sources.54 Importantly, this proposal designates
different sections with different authors and, apart from 3.5 lines of copied text in
the Overview, all remaining copied text was in Subject A's section.55 Thus, we
conclude there is evidence of a pattern of plagiarism.
                                Impact on the Research Record
      The plagiarism occurred within a declined proposal, so the harm to the
research record was minimal.
                                      Mitigating Factors
      The committee concluded Subject A's "events a t home and a t work a t the time,
over commitment of resources, [and] miscommunication" resulted i n Subject A's
"significant degree of inattention to detail in compiling the documentation for this
proposal."56 Many scientists have challenges like these and do not plagiarize.
Additionally, it is unlikely all these factors contributed to Subject A's plagiarism in
two different proposals at two different times. Accordingly, we discount the
importance of these factors a s contributing to the extensive copying from multiple
sources. However, Subject A h a s informed us he has purchased plagiarism software
to avoid repeat instances, and his proposal submitted after our investigation did not
have any plagiarism.


49 45 C.F.R. §689.3(b).
50 The committee utilized Google Scholar.
51 Appendix (I), p. 6.
52 (redacted). The subject is the PI and two other (redacted) faculty are listed as co-PIS.
53 (redacted). The subject is the PI apd two other researchers are listed as co-PIS.
54 Appendix (K).
55 One paragraph was copied verbatim from a published paper. In the middle of this copied
paragraph is a citation ([9]) that also appears in the copied paragraph in the paper; this copied
paragraph appears on p. 9 of the proposal. It is clear this was cut and pasted because citations [4] -
[lo] are first used on p. 11of the proposal.
56 Appendix (I   p.)6.,


                                                                                                  Pg. 8
                               Recommendations
 Send Subject A a letter of reprimand informing him NSF is making a finding
 of research misconduct;
 Debar Subject A for 1year;
 Require certifications (a copy of University's certifications) for 3 years. The
 certifications should be sent to the Associate Inspector General for
 Investigations (AIGI) in the OIG;
 Require assurances from Subject A for 3 years t h a t all documents he submits
 to NSF are either his original work or are properly cited. The assurances
 should be sent to the AIGI; and
 Require Subject A to take a n ethics course and provide a copy of the training
 materials to the AIGI.


                           Subiect's response
The subject did not respond to the draft report.




                                                                            Pg. 9
